           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                        Date:    September 27, 2010
           Single Audit on the City of Charlotte, North Carolina
           Report No. QC-2010-121
                                                                      Reply To    JA-20
  From:    Earl C. Hedges                                              Attn Of:
           Program Director for Single Audit
    To:    Regional Administrator, FAA, Southern Region


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the City of Charlotte, North Carolina (City). This report presents
           the results of our Quality Control Review of a single audit performed on the City
           by Cherry, Bekaert & Holland, LLP, for the fiscal year ending June 30, 2009.
           During this period, the City expended almost $54 million from the following DOT
           grant programs.

            DOT Operating                CFDA* Program           FY 2009     Major Direct
            Administration               Number  Name          Expenditures Program Award
                                                   Airport
            Federal Aviation
                                  20.106       Improvement      $34,877,529   Yes    Yes
             Administration
                                                  Program
                                                   Capital
             Federal Transit
                                  20.500     Investment Grants   $3,488,831    No    Yes
             Administration
                                                  Program
             Federal Transit                  Formula Grants
                                  20.507                        $15,463,020    No    Yes
             Administration                       Program
             Federal Transit                   New Freedom
                                  20.521                           $100,225    No    Yes
             Administration                   NC-57-X005-01
           * Catalogue of Federal Domestic Assistance

           Office of Management and Budget (OMB) Circular A-133, "Audits of States,
           Local Governments, and Non-Profit Organizations," requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.
                                                                                                     2
Cherry, Bekaert & Holland rendered an unqualified (clean) opinion on the City's
financial statements and compliance with major Federal programs and did not
question any costs concerning DOT grant programs. 1

The purpose of our review was to determine: (1) whether the work complied with
generally accepted government auditing standards as prescribed by the
Comptroller General of the United States, the Single Audit Act of 1984, as
amended (Act), and OMB Circular A-133; and (2) the extent to which we could
rely on the auditor’s work.

RESULTS

Based on our Quality Control Review, we determined that Cherry, Bekaert &
Holland's work generally met the requirements of generally accepted government
auditing standards, the Act, and OMB Circular A-133. We found nothing to
indicate that Cherry, Bekaert & Holland's opinion on the financial statements or
reports on internal control and compliance were inappropriate or unreliable.

However, we identified deficiencies in audit documentation and the need to
expand compliance testing in future audits. Based on explanations provided by
Cherry, Bekaert & Holland in response to our concerns, we determined that these
deficiencies did not alter the overall results of the audit. These deficiencies,
however, should be corrected in future audits in order to adequately support audit
conclusions. The deficiencies are related to the following areas:

1. Davis-Bacon Act (Compliance Requirement D).
   Cherry, Bekaert & Holland did not document the compliance testing performed
   to determine whether the City obtained certified payrolls from contractors.
   Cherry, Bekaert & Holland informed us that certified payrolls were part of the
   documentation submitted in support of contractor invoices and were reviewed
   at that time. However, Cherry, Bekaert & Holland agreed to better document
   its testing of certified payrolls in future audits.

2. Procurement, Suspension and Debarment (Compliance Requirement I).
      Cherry, Bekaert & Holland did not perform compliance testing to determine
      whether the City verified that contractors were not suspended, debarred, or
      otherwise excluded from participating in Federally funded work. Cherry,
      Bekaert & Holland agreed to perform additional suspension and debarment
      compliance testing in future audits.




1
    The single audit report issued by Cherry, Bekaert & Holland LLP is available upon request. Requests
    should be sent to singleauditrequest@oig.dot.gov.
                                                                                3

If you have any questions concerning this report, please call me at (410) 962-1729
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.
                                        #

cc: Audit Liaison, FAA, ABU-100
    Audit Liaison, OST, M-1
    Chief Accountant, City of Charlotte, NC
